TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Is Taking
                    Several Actions to Improve Its Toll-Free
                        Telephone Performance for the
                              2010 Filing Season



                                          March 2, 2010

                              Reference Number: 2010-40-031




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 2, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Internal Revenue Service Is Taking Several
                               Actions to Improve Its Toll-Free Telephone Performance for the
                               2010 Filing Season (Audit # 200940041)

 This report presents the results of our review to determine if the Internal Revenue Service (IRS)
 adequately planned for the 2010 Filing Season, 1 including the effect of legislative and other
 events on toll-free telephone access and customer service. This audit is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2010 Annual Audit Plan and addresses
 the major management challenge of Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 Each year, millions of taxpayers contact the IRS by calling its various toll-free telephone
 assistance lines to seek help in understanding tax laws and meeting their tax obligations. The
 IRS’ toll-free telephone system planning is on course for the 2010 Filing Season; however, call
 demand may exceed projections if planned actions are not implemented on schedule. For
 example, if the expected assistors are not hired and trained before the filing season, taxpayer
 access will be lower and wait times will be longer for those waiting to speak with an assistor.
 Also, if the Web-based and telephone applications for the Electronic Filing Personal
 Identification Number are not completed on time, taxpayers will need to call the IRS or visit a
 Taxpayer Assistance Center. Considering that the IRS received almost 5 million prior year
 Adjusted Gross Income (AGI) calls in the 2009 Filing Season, customer service would be
 significantly affected if the volume of prior year AGI calls is the same or more during the 2010
 Filing Season.

 1
   The filing season is the period from January through mid-April of each year when most individual tax returns are
 filed.
                                  The Internal Revenue Service Is Taking
                             Several Actions to Improve Its Toll-Free Telephone
                                  Performance for the 2010 Filing Season



Synopsis
For the last 2 filing seasons, the Customer Account Services Customer Service Representative
Level of Service 2 was below 80 percent and the Average Speed of Answer 3 increased. The
Economic Stimulus Act of 2008, 4 passed in February 2008, affected toll-free telephone access
and performance measures for both the 2008 Filing Season and Fiscal Year 2008. Calls
regarding the prior year AGI, the Recovery Rebate Credit, and the American Recovery and
Reinvestment Act of 2009 5 (Recovery Act) affected the 2009 Filing Season. Although some
provisions of the Recovery Act affected Tax Year 2008 income tax returns, most of the
provisions affect Tax Year 2009 returns that will be filed during the 2010 Filing Season.
The IRS is taking several actions to help ensure it will be able to provide a 71.2 percent Level of
Service for the 2010 Filing Season. To reduce the burden on telephone assistors and improve
taxpayer service, the IRS is taking the following actions/initiatives for this filing season:
First             The IRS plans to increase the number of assistors available during the fiscal year.
                  It expects to have approximately 280 more assistors than the prior filing season.
                  The Customer Account Services function has been allocated over 500 Full-Time
                  Equivalents 6 for the 2010 Filing Season specifically for the Recovery Act.
Second            The IRS has established six applications 7 to handle Recovery Act call volume. In
                  the event of high call volume, taxpayers have the option to route out to available
                  assistors in a general account application. Recovery Act questions may also be
                  answered by assistors in other applications if the taxpayer has more than one
                  question.
Third             The IRS is developing a Web-based application for taxpayers who do not have
                  their prior year AGI or Personal Identification Number. The application will
                  provide taxpayers with an alternative number to allow them to file electronically.
                  The application will be promoted through software to taxpayers and tax
                  professionals who file tax returns electronically.



2
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor.
3
  Average Speed of Answer is the average number of seconds taxpayers waited in the queue (on hold) before
receiving services.
4
  Pub. L. No. 110-185, 122 Stat. 613.
5
  Pub. L. No. 111-5, 123 Stat. 115.
6
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff
hours.
7
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
                                                                                                                          2
                                The Internal Revenue Service Is Taking
                           Several Actions to Improve Its Toll-Free Telephone
                                Performance for the 2010 Filing Season


                 In a report to Congress, 8 the Government Accountability Office stated that it
                 reviewed the plans and milestones for this new application. It indicated that
                 testing is scheduled to continue up to the launch date of January 18, 2010, which
                 is just after electronic filing begins, and that there is no time for schedule
                 slippage. Because electronic filing begins on January 15, 2010, taxpayers
                 accessing the Electronic Filing Personal Identification Number Web-based or
                 telephone application will receive a message saying that the application will not
                 be available until January 18, 2010, and asking them to retry on that date.
Based on our audit work the last two filing seasons, we believe the IRS’ performance measures
for Fiscal Year 2010 are achievable if it completes all of its preparation for the 2010 Filing
Season. However, delays to any of the initiatives listed above would pose significant risk for
delivering a successful filing season. We are making no recommendations in this report.

Response
IRS management responded that all three initiatives listed in our report were successfully and
timely deployed. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




8
 Opportunities Exist for IRS to Enhance Taxpayer Service and Enforcement for the 2010 Filing Season
(GAO 09-1026, dated September 2009).
                                                                                                      3
                                     The Internal Revenue Service Is Taking
                                Several Actions to Improve Its Toll-Free Telephone
                                     Performance for the 2010 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Plans to Provide a Seventy-One
          Percent Level of Service for Fiscal Year 2010, Comparable to
          Fiscal Year 2009 ...........................................................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
           The Internal Revenue Service Is Taking
      Several Actions to Improve Its Toll-Free Telephone
           Performance for the 2010 Filing Season




               Abbreviations

AGI      Adjusted Gross Income
CAS      Customer Account Services
IRS      Internal Revenue Service
PIN      Personal Identification Number
W&I      Wage and Investment
                                 The Internal Revenue Service Is Taking
                            Several Actions to Improve Its Toll-Free Telephone
                                 Performance for the 2010 Filing Season




                                            Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
75.7 million times 1 during the 2009 Filing Season. 2 Of these calls, about 29.4 million were made
to the toll-free telephone number that taxpayers call to ask account or tax law questions
(1-800-829-1040). In addition, about 6.2 million calls were made to the IRS automated
TeleTax system that provides recorded tax law and tax refund information. The IRS estimates
that its toll-free telephone costs for Fiscal Year 2009 were about $1.1 billion.
For the last 2 filing seasons, the Customer Account Services (CAS) Customer Service
Representative Level of Service 3 was below 80 percent and the Average Speed of Answer 4
increased. Figure 1 shows the actual performance measures for the last four filing seasons.
                       Figure 1: Comparison of Performance Measures
                               for the 2006–2009 Filing Seasons

        Performance Measures                            2006           2007          2008          2009

        Level of Service                               82.0%          82.5%          77.4%        64.0%

        Average Speed of Answer (seconds)                213            249           347           519

        Assistor Calls Answered (millions)              14.8           14.7           16.1         17.7

       Source: IRS Enterprise Telephone Data Warehouse.

The Economic Stimulus Act of 2008, 5 passed in February 2008, affected toll-free telephone
access and performance measures for both the 2008 Filing Season and Fiscal Year 2008.

1
  These calls were made to the suite of 20 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data for the 2009 Filing Season are for Customer Account
Services Toll-Free telephone assistance lines from January 1 through April 18, 2009, and comparable dates in prior
years.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed.
3
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor.
4
  Average Speed of Answer is the average number of seconds taxpayers waited in the queue (on hold) before
receiving services.
                                                                                                           Page 1
                                  The Internal Revenue Service Is Taking
                             Several Actions to Improve Its Toll-Free Telephone
                                  Performance for the 2010 Filing Season



Taxpayers made about 193.3 million call attempts 6 to the IRS toll-free telephone assistance lines
during Fiscal Year 2008. The IRS received approximately 132.8 million call attempts after the
2008 Filing Season.
Calls regarding the prior year Adjusted Gross Income (AGI), the Recovery Rebate Credit, and
the American Recovery and Reinvestment Act of 2009 7 (Recovery Act) affected the 2009 Filing
Season. The Recovery Act was signed into law in February 2009. Although some provisions of
the Recovery Act affected Tax Year 2008 income tax returns, most of the provisions affect Tax
Year 2009 returns that will be filed during the 2010 Filing Season.
Most IRS taxpayer telephone assistance and telephone operations are the responsibility of the
IRS’ Wage and Investment (W&I) Division CAS function. The CAS function is composed of
four units: Submission Processing, Accounts Management, the Joint Operations Center, 8 and
Electronic Products and Services Support. The CAS function’s Joint Operations Center manages
tax law, account, and compliance telephone calls for the W&I, Small Business/Self-Employed,
and Tax Exempt/Government Entities Divisions.
This review was performed at the CAS function of the W&I Division Headquarters in Atlanta,
Georgia, during the period July through October 2009. Since the CAS function had not
completed planning for the 2010 Filing Season by November 1, 2009, many of the planning
documents were still in draft status, were incomplete, or had not been finalized. We were
provided select documents, but due to time constraints, we were not able to validate the data.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
  Pub. L. No. 110-185, 122 Stat. 613.
6
  These calls were made to the toll-free telephone lines the IRS refers to as “Customer Account Services” for the
period October 1, 2007, through September 30, 2008.
7
  Pub. L. No. 111-5, 123 Stat. 115.
8
  The Joint Operations Center is responsible for building detailed telephone work plans and schedules for call sites
based on operating division high level work plans. It also serves as the central control organization for all of the
IRS’ toll-free telephone call routing.
                                                                                                              Page 2
                                The Internal Revenue Service Is Taking
                           Several Actions to Improve Its Toll-Free Telephone
                                Performance for the 2010 Filing Season




                                       Results of Review

The Internal Revenue Service Plans to Provide a Seventy-One Percent
Level of Service for Fiscal Year 2010, Comparable to Fiscal Year 2009
The IRS plans to receive 28.1 million fewer calls in Fiscal Year 2010 than in Fiscal Year 2009
and plans to achieve a 71.2 percent Level of Service and 698-second (11.6 minutes) Average
Speed of Answer. Figure 2 compares the IRS’ expectations for Fiscal Year 2010 to the actual
services provided during the last 4 fiscal years.
         Figure 2: Actual Service Provided During the Last Four Fiscal Years
                      Compared to the Fiscal Year 2010 Goals

                                                                                     Fiscal Year 2010
Measure                         2006         2007         2008         2009
                                                                                   Goals and Projections*

Level of Service               82.0%        81.3%        52.8%        70.0%                 71.2%
Average Speed of
Answer (minutes)                 4.0          4.5          10.4         8.8                  11.6
Dialed Number
Attempts (millions)             80.8         83.8         193.3        121.6                 93.6
Assistor Calls
Answered (millions)             32.7         33.8          40.4        39.0                  32.4
* = Goals and Projections are as of August 11, 2009, and October 19, 2009. These projections may change as
plans are finalized.
Source: IRS Enterprise Telephone Data Warehouse, Fiscal Year 2010 IRS Budget Submission, and Joint
Operations Center workplans.

The CAS function provided several key documents to us after fieldwork for this audit was
completed on November 1, 2009. We have incorporated this data as appropriate in the report,
but could not validate the data. Projections for the 2010 Filing Season were expected to be
finalized in December 2009.
The Level of Service provided during the filing season is generally comparable to that provided
for the fiscal year. Nevertheless, this did not hold true for the last 2 fiscal years and filing
seasons. See Figure 3 for a comparison of Level of Service for the last 4 fiscal years and filing
seasons.




                                                                                                       Page 3
                              The Internal Revenue Service Is Taking
                         Several Actions to Improve Its Toll-Free Telephone
                              Performance for the 2010 Filing Season



                      Figure 3: Comparison of the Level of Service
                         for Filing Seasons Versus Fiscal Years

                   90.0%      82.0%                  82.5%
                                                                    77.4%
                   80.0%                                                             70.0%
                             82.0%           81.3%
                   70.0%
                   60.0%                                                             64.0%
                   50.0%
                   40.0%                                           52.8%

                   30.0%
                   20.0%
                   10.0%
                    0.0%
                                2006             2007           2008             2009

                           Filing Season Level of Service    Fiscal Year Level of Service

                 Source: IRS Enterprise Telephone Data Warehouse and Fiscal Year 2010
                 IRS Budget Submission.

The IRS is expecting fewer taxpayers to call the toll-free lines in Fiscal Year 2010 with questions
regarding the prior year AGI and the Recovery Rebate Credit. However, it plans to receive
9.8 million more call attempts on its toll-free lines but answer 1.4 million fewer calls using
                                            assistors than it did in Fiscal Year 2007, when it
                                            provided an 81.3 percent Level of Service.
         The IRS plans to receive
    9.8 million more call attempts but       Based on our audit work the last two filing seasons, we
   answer 1.4 million fewer calls using
                                             believe the IRS’ performance measures for Fiscal
       assistors than it received in
    Fiscal Year 2007, when it provided       Year 2010 are achievable if it completes all of its
     an 81.3 percent Level of Service.       preparation for the 2010 Filing Season. To help
                                             address the high call volumes received during the
                                             previous filing season and fiscal year, the
CAS function is implementing a new system to generate site-level telephone staffing
requirements; implementing self-service telephone and Web-based applications that will provide
taxpayers who do not have the prior year’s AGI or a Personal Identification Number (PIN) with
an IRS selected Electronic Filing PIN; establishing new applications for Recovery Act calls; and
hiring additional assistors. Still, delays to any of these initiatives would pose significant risk for
delivering a successful filing season.




                                                                                               Page 4
                                 The Internal Revenue Service Is Taking
                            Several Actions to Improve Its Toll-Free Telephone
                                 Performance for the 2010 Filing Season



Based on available funding, the IRS determines the Level of Service it can deliver
while still being able to also work correspondence and adjustment inventories
The CAS function begins planning for each fiscal year more than a year in advance. Planning
for the 2010 Filing Season began in December 2008, but the budget for the IRS operations was
established prior to that, when it was first submitted for Office of Management and Budget and
Congressional approval in early Fiscal Year 2009.
In December 2008, the Joint Operations Center first made initial assumptions and established the
initial plan (the number of expected calls) using historical data. The Accounts Management
function sent requests to the four IRS business units to obtain information about any
circumstances or situations that could affect toll-free operations during the upcoming fiscal year.
This could include changes in the tax law or forms, new legislation and regulations, or changes
to internal processes. In February 2009, a work plan conference was held for the 2010 Filing
Season for stakeholders to discuss various assumptions and the effect of those assumptions on
service delivery.
The W&I Division Strategy and Finance office advised the CAS function of the Full-Time
Equivalents 9 allocated to answer toll-free telephone calls and process taxpayer correspondence.
The Joint Operations Center staff integrated the provided Full-Time Equivalents into the work
plan to develop delivery goals for the upcoming filing season and establish performance
measures.
The Accounts Management function used the input from the Joint Operations Center and
business units and formalized its plan with its annual Program Letter. Its Fiscal Year 2010
Program Letter was signed on November 5, 2009. However, the Joint Operations Center had not
formalized its plan for the 2010 Filing Season and planned to do so in December 2009 after
refining planning assumptions.
For Fiscal Year 2010, the CAS function’s goals are to:
    •    Balance resources between paper inventories and telephone calls, in order to deliver
         optimum service to taxpayers.
    •    Implement Phase II of the Centralized Contact Center Forecasting and Scheduling, which
         strives to maximize available employees for telephone and adjustments inventory through
         a centralized database.
    •    Work cross-functionally to assist taxpayers with identity theft issues by appropriately
         staffing the Identity Theft Hotline (1-800-908-4490).


9
 A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff
hours.
                                                                                                             Page 5
                              The Internal Revenue Service Is Taking
                         Several Actions to Improve Its Toll-Free Telephone
                              Performance for the 2010 Filing Season



   •   Use Contacts Analytics at all contact centers to improve the capability to analyze the
       nature of the taxpayers’ calls. Contact Analytics is a computer software program that
       examines audio from thousands of recorded telephone contacts and provides analysis of
       the content.
   •   Develop an online reference library by topic that will also assist employees in their
       research capabilities for assisting international taxpayers by developing Probe and
       Response Guide pages for international cases.

The IRS has few options if unplanned call demand occurs during the filing season
The budget cycle spans 2 years. During this time, negotiations take place in which budget
figures are revised because of differing priorities and funding levels. Once the budget is passed
by Congress, the business units and organizations must develop plans to provide service using
the budget that has been allocated to them. However, circumstances often change between the
time the budget is drafted and expectations are budgeted to the time the budget is approved.
For example, during the Fiscal Year 2008 and 2009 budget cycles, the Economic Stimulus Act
of 2008 and the Recovery Act were enacted, creating significant unplanned demand on the IRS’
toll-free operations. If call demand is significantly greater than expected, the following options
may be available.
   •   Hiring and training additional assistors and/or opening more call sites.
   •   Reprioritizing programs—pulling assistors from working taxpayers’ correspondence and
       adjustments to answering taxpayers’ calls, or temporarily transferring assistors from other
       IRS functions and training them to respond to taxpayers’ calls, usually focusing on
       specific applications.
   •   Lowering the expected Level of Service.
Which options are feasible depend on the lead time needed to hire and train assistors and/or open
more call sites. Historically, lead time has been insufficient to hire and train additional assistors
and/or open more call sites. The IRS believes it has existing processes in place to deal with
unplanned call demand. These plans are executed throughout the filing season and fiscal year to
maintain the level of service provided to the telephone and paper programs.
Because of the magnitude of prior year AGI requests last year, and the associated potential risks
to the upcoming filing season, the IRS stated that it developed a formal action plan specifically
related to this issue. A review of the draft contingency plan for prior year AGI requests shows
that the draft contingency plan was not being kept current as actions occurred. The IRS did not
document why several of the start and end dates or decisions due for some of the action items
were delayed or allowed to pass. For example, the recruitment of additional staff was to have
been completed by November 13, 2009. When we asked about the status of this action item on
November 18, 2009, we were advised that a decision had been made to proceed with recruitment.
                                                                                               Page 6
                                 The Internal Revenue Service Is Taking
                            Several Actions to Improve Its Toll-Free Telephone
                                 Performance for the 2010 Filing Season



While we understand this was a draft document, the necessity of hiring staff in time to train them
before the filing season makes it critical that the dates for this action item be monitored carefully.
Keeping the contingency plan current would aid the IRS in its monitoring.
Assistors are generally hired and trained before the start of the filing season because it is
very difficult to train newly hired assistors during the filing season
     •   Background checks must be completed on employees hired by the IRS.
     •   Experienced assistors serve as instructors to train newly hired assistors. Using
         experienced assistors as instructors means there are fewer assistors to answer incoming
         telephone calls.
     •   Once new assistors are out of the classroom and answering telephone calls, additional
         monitoring is required of new assistors to ensure quality responses are being provided to
         taxpayers. This also reduces the number of calls that can be answered because
         experienced assistors may serve as mentors and guide the newly trained assistors.
     •   Training for newly hired assistors lasts several weeks because of the complexity of the
         tax code. The filing season only lasts for about 15 weeks.
For the most part, the IRS reprioritizes programs to meet temporary increased call
demand
Reprioritizing programs usually includes requiring assistors to answer telephone calls rather than
work taxpayer correspondence or adjustment inventories. This results in increased inventories of
taxpayer correspondence and adjustments.
When reprioritizing programs is insufficient to meet demand, the IRS may transfer assistors from
other IRS functions. IRS officials stated this happens infrequently, when there are unusual
circumstances. For example, during the 2008 Filing Season, the IRS temporarily diverted about
1,500 Automated Collection System Program 10 assistors (one-half of the assistors who normally
answer calls on the Automated Collection System Program lines) to answer calls about rebates.
Therefore, the Automated Collection System Program did not meet its Level of Service goal for
the 2008 Filing Season. Collection activities were also put on hold. The IRS suspended notices
sent by Automated Collection System Program staff, including final notices before enforcement,
collection due process notices, and notices of levy. The IRS estimated that the reallocation of
hundreds of IRS collections staff to answering taxpayer telephone calls resulted in $655 million
in foregone collections revenue. 11

10
   The Automated Collection System Program is a telephone tax collection system designed to assist Collection
function representatives in the resolution of delinquent taxpayer accounts.
11
   IRS’s 2008 Filing Season Generally Successful Despite Challenges, although IRS Could Expand Enforcement
during Returns Processing (GAO-09-146, dated December 2008). Foregone revenue estimate is as of August 9,
2008.
                                                                                                         Page 7
                                 The Internal Revenue Service Is Taking
                            Several Actions to Improve Its Toll-Free Telephone
                                 Performance for the 2010 Filing Season



Because of the challenges of the last two fiscal years, the IRS has reduced its
Level of Service goal for Fiscal Year 2010
The IRS experienced increased call demand during Fiscal Year 2008, mainly after the filing
season, related to the economic stimulus payments. It again experienced increased call demand
during the 2009 Filing Season because taxpayers called:
     •   To ask economic stimulus payment and Recovery Rebate Credit questions and respond to
         math error notices 12 issued by the IRS relating to the Recovery Rebate Credit.
     •   To obtain information on the various tax relief provisions of the Recovery Act.
     •   To obtain the amount of their prior year AGI. In Fiscal Year 2009, the IRS discontinued
         the use of U.S. Individual Income Tax Declaration for an IRS e-file Online Return
         (Form 8453-OL) for Tax Year 2008. Now, taxpayers choosing to electronically prepare
         and file their tax returns are required to provide their prior year AGI and use a
         self-selected, five-digit PIN as their signature. By the end of the 2009 Filing Season, the
         IRS had received 4.8 million calls from taxpayers requesting their Tax Year 2007 AGI.
         The IRS only planned for 2.0 million prior year AGI calls.
Because of the additional call volume, the IRS did not meet its Level of Service and Average
Speed of Answer performance measurement goals for the 2009 Filing Season.
The IRS believes that the volume of calls will continue to be high because taxpayers will
continue to call about the Recovery Act and math error notices. The IRS is projecting
421.6 Full-Time Equivalents will be needed for Recovery Act calls during the 2010 Filing
Season and is allocating $25.1 million 13 for Recovery Act purposes. The IRS has projected it
will receive 496,216 calls regarding the Recovery Act math error notices for the 2010 Filing
Season and 1,045,000 calls for Fiscal Year 2010. The IRS provided 474,422 Recovery Act
information messages, 14 with an estimated 150,000 callers speaking to an assistor in the
2009 Filing Season.
The IRS received almost 5 million calls during the 2009 Filing Season from taxpayers requesting
their prior year AGI. The IRS expects to continue to receive contacts regarding prior year AGI,
but expectations are that not all contacts will be assistor calls and that many will be handled
differently from last year. It has planned for 769,802 prior year AGI calls for the 2010 Filing
Season, significantly less than the volume received in the prior filing season. In addition, the
IRS is developing a Web-based application in English 15 that will provide taxpayers who do not
have the prior year’s AGI or PIN with an IRS-selected Electronic Filing PIN. For taxpayers

12
   The IRS created three math error notices for Recovery Rebate Credit math errors. Math error notices are issued to
taxpayers when changes to the tax return during processing result in an overpayment or balance due.
13
   $46.5 million is allocated for Recovery Act purposes for Fiscal Year 2010.
14
   For the period March 8, 2009, to April 18, 2009.
15
   A Spanish version of the Web-based application for prior year AGI is being pursued for the 2011 Filing Season.
                                                                                                            Page 8
                                  The Internal Revenue Service Is Taking
                             Several Actions to Improve Its Toll-Free Telephone
                                  Performance for the 2010 Filing Season



filing electronically through a preparer, an automated self-service telephone application will be
available to provide an Electronic Filing PIN.
The IRS estimates that it would need an additional 374 Full-Time Equivalents to deliver an
82 percent Level of Service for the 2010 Filing Season and increase the Fiscal Year 2010 Level
of Service from 71.2 to 74.8 percent. These Full-Time Equivalents would cost about
$22.9 million in salary and benefits alone. 16

The IRS is taking several actions to help ensure it will be able to provide a
71.2 percent Level of Service
To reduce burden on telephone assistors and improve taxpayer service, the IRS is taking several
actions for this filing season.
First             The IRS plans to increase the number of assistors available during the fiscal year.
                  It expects to have approximately 280 more assistors than the prior filing season.
                  It is building prior year AGI and Recovery Act demand into the Fiscal Year 2010
                  work plan. The CAS function has been allocated over 500 Full-Time Equivalents
                  for the 2010 Filing Season specifically for the Recovery Act.
Second            The IRS has established six applications 17 to handle Recovery Act call volume.
                  In the event of high call volume, taxpayers have the option to route out to
                  available assistors in a general account application. Recovery Act questions may
                  also be answered by assistors in other applications if the taxpayer has more than
                  one question.
Third             The IRS is developing a Web-based application for taxpayers who do not have
                  their prior year AGI or PIN. The application will provide taxpayers with an
                  alternative telephone number to allow them to file electronically. The application
                  will be promoted through software to taxpayers and tax professionals who file tax
                  returns electronically.
                  In a report to Congress, 18 the Government Accountability Office stated that it
                  reviewed the plans and milestones for this new application. The Government
                  Accountability Office indicated that testing is scheduled to continue up to the
                  launch date of January 18, 2010, which is just after electronic filing begins, and
                  that there is no time for schedule slippage. Because electronic filing begins on


16
   If the full costs of providing toll-free telephone service for Fiscal Year 2009 are allocated per Full-Time
Equivalent, the additional 374 Full-Time Equivalents would cost about $46.3 million.
17
   The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
18
   Opportunities Exist for IRS to Enhance Taxpayer Service and Enforcement for the 2010 Filing Season
(GAO 09-1026, dated September 2009).
                                                                                                                Page 9
                                The Internal Revenue Service Is Taking
                           Several Actions to Improve Its Toll-Free Telephone
                                Performance for the 2010 Filing Season



                January 15, 2010, taxpayers accessing the Electronic Filing PIN Web-based or
                telephone application will receive a message saying that the application will not
                be available until January 18, 2010, and asking them to retry on that date.
Call demand may exceed projections if planned actions are not implemented on schedule. If the
expected assistors are not hired and trained before the filing season, taxpayer access will be
lower and wait times will be longer for those waiting to speak with an assistor. If the Web-based
and telephone applications for Electronic Filing PIN are not completed on time, taxpayers will
need to call the IRS or visit a Taxpayer Assistance Center. Considering that the IRS received
almost 5 million prior year AGI calls in the 2009 Filing Season, customer service would be
significantly affected if the volume of prior year AGI calls is the same or more during the
2010 Filing Season.
New legislation may increase the volume of calls received during the 2010 Filing Season
For Tax Years 2009 and 2010, the Making Work Pay provision 19 of the Recovery Act will
provide a refundable tax credit of up to $400 for working individuals and up to $800 for married
taxpayers filing joint returns. This tax credit will be calculated at a rate of 6.2 percent of earned
income and will phase out for taxpayers with a modified AGI in excess of $75,000, or $150,000
for married couples filing jointly. For people who receive a paycheck and are subject to
withholding, the credit will typically be handled by their employers through automated
withholding changes in early spring. These changes may result in an increase in take-home pay.
The amount of the credit must be reported on the employee’s Tax Year 2009 return filed in
Calendar Year 2010. Taxpayers who do not have taxes withheld by an employer during the year
can also claim the credit on their Tax Year 2009 return.
Concerning the Making Work Pay Credit, more than 15.4 million taxpayers could unexpectedly
owe taxes for Tax Year 2009 because the IRS did not take the following situations into
consideration when changing the withholding tables:
     •   Dependents who receive wages.
     •   Single taxpayers with more than one job.
     •   Joint filers where one or both spouses have more than one job or both spouses work.
     •   Individuals who file a return with an Individual Taxpayer Identification Number.
     •   Taxpayers who receive pension payments.
     •   Social Security recipients who receive wages.



19
  Millions of Taxpayers May Be Negatively Affected by the Reduced Withholding Associated With the Making Work
Pay Credit (Reference Number 2010-41-002, dated November 4, 2009).
                                                                                                    Page 10
                                   The Internal Revenue Service Is Taking
                              Several Actions to Improve Its Toll-Free Telephone
                                   Performance for the 2010 Filing Season



Of the 15.4 million taxpayers affected, the Treasury Inspector General for Tax Administration
estimated that more than 122,000 taxpayers may be assessed the estimated tax penalty in
Tax Year 2009 and an additional 1.2 million taxpayers may have their estimated tax penalty
amount increased due to the Making Work Pay Credit withholding issues.
The Worker, Homeownership, and Business Assistance Act of 2009 20 was signed into law on
November 6, 2009. This newly enacted law has several provisions that affect tax law, thereby
affecting taxpayer call demand.
       •   Extension and Modification of the First-Time Homebuyer Credit. Taxpayers will
           receive extensions on the First-Time Homebuyer Credit, and the law has been expanded
           to include existing homeowners purchasing a replacement home that meet certain
           specifications. The law also includes a provision for members of the uniformed services,
           members of the Foreign Service, and employees of the intelligence community serving
           overseas. The credit will apply to these members if they buy, or enter into a binding
           contract to buy, a principal residence on or before April 30, 2011. If a binding contract is
           entered into by April 30, 2010, then they have until June 30, 2011, to close on the
           purchase.
       •   5-Year Carryback of Operating Losses. The 5-Year Carryback of Operating Losses
           provision that was first introduced in the Recovery Act has been extended an additional
           year, as well as expanded to cover medium and large businesses.
       •   Certain Tax Return Preparers Required to File Returns Electronically. This
           provision requires any individual income tax return prepared by a tax return preparer be
           filed electronically if the tax return preparer files more than 10 tax returns during the
           calendar year. This provision applies to returns filed after December 31, 2010.




20
     Pub. L No. 111-92, 123 Stat. 2984.




                                                                                               Page 11
                                 The Internal Revenue Service Is Taking
                            Several Actions to Improve Its Toll-Free Telephone
                                 Performance for the 2010 Filing Season



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the IRS adequately planned for the
2010 Filing Season, 1 including the effect of legislative and other events on toll-free telephone
access and customer service. To accomplish this objective, we conducted the following tests.
I.      Evaluated the IRS’ preparation for the toll-free telephone system 2010 Filing Season.
        A. Analyzed select IRS planning documents.
        B. Identified new tax legislation passed during Calendar Years 2008 and 2009 affecting
           toll-free telephone operations.
        C. Determined the process used to develop the work plans for the 2010 Filing Season.
        D. Obtained IRS data for the total costs of the toll-free telephone operations for Fiscal
           Year 2009.
II.     Determined what plans the IRS has in place to handle spikes in call demand, especially
        when it is able to predict that call volumes are going to be considerably higher than the
        IRS can normally accommodate.
III.    Determined whether the IRS plans to implement any new operational processes to
        improve taxpayer access to the toll-free telephone system for the 2010 Filing Season.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the CAS function’s policies, procedures,
and practices for preparing for delivery of toll-free telephone service during the 2010 Filing
Season. We evaluated these controls by interviewing management and reviewing IRS reports
and other documents.




1
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed.
                                                                                                          Page 12
                           The Internal Revenue Service Is Taking
                      Several Actions to Improve Its Toll-Free Telephone
                           Performance for the 2010 Filing Season



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Patricia A. Jackson, Lead Auditor
M. Jean Bell, Senior Auditor
Nelva A. Usher, Auditor




                                                                                    Page 13
                          The Internal Revenue Service Is Taking
                     Several Actions to Improve Its Toll-Free Telephone
                          Performance for the 2010 Filing Season



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Financial Officer OS:CFO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Performance Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:
PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                Page 14
             The Internal Revenue Service Is Taking
        Several Actions to Improve Its Toll-Free Telephone
             Performance for the 2010 Filing Season



                                                    Appendix IV

Management’s Response to the Draft Report




                                                             Page 15
     The Internal Revenue Service Is Taking
Several Actions to Improve Its Toll-Free Telephone
     Performance for the 2010 Filing Season




                                                     Page 16
